WORD COUNT CERTIFICATION

As required by Supreme Court Rule 33. (l)(d) I certify that this Petition For Writ of
Certiorari contains 8,968 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.(l)(d).

Executed at Los Angeles California on July 21, 2020

/

Delaney Smith Pnarm.D.,Jv|®.

NOTICE OF RELATED WORKERS COMPENSATION ADMINISTRATIVE COURT
JUDGE RULING BY WCAB JUDGE PAMELA FOUST THAT CAN ONLY BE REVIEWED
BY
JUSTICES
OF
THE
UNITED
STATES
SUPREME
COURT
PURSUANT TO STATE OF CALIFORNIA LABOR CODE SECTION 5953 AND UNITED
STATES SUPREME COURT’S RULING IN FELDMAN

(;« f

